             Office of Inspector General




                                     November 21, 2006

                                     KATHLEEN AINSWORTH
                                     ACTING VICE PRESIDENT, DELIVERY AND RETAIL

                                     PAUL E. VOGEL
                                     SENIOR VICE PRESIDENT AND MANAGING DIRECTOR,
                                     GLOBAL BUSINESS

                                     SUBJECT:        Management Advisory – Delivery Confirmation
                                                     for Inbound International Mail
                                                     (Report Number DR-MA-07-002)

                                     This report presents the results of our review of Delivery
                                     Confirmation for Inbound International Mail (Project Number
                                     06XG032DR000). Our objective was to determine whether
                                     delivery and retail employees are scanning inbound
                                     international mail parcels1 to confirm delivery. The report
                                     responds to a request from the Acting Vice President,
                                     Delivery and Retail, to review delivery confirmation for
                                     inbound international parcels.

Results in Brief                     U.S. Postal Service retail2 employees at the Chicago and
                                     Northern Illinois Districts were not consistently scanning
                                     inbound international parcels to confirm delivery3 because
                                     they were not aware of the requirement to do so. However,
                                     the Postal Service city delivery carriers at both districts were
                                     scanning inbound international parcels to confirm delivery.
                                     During our fieldwork, the Postal Service issued a Standard




1
  A parcel is “mail that does not meet the mail processing category of letter-size mail or flat-size mail and is usually
enclosed in a mailing container such as a carton.”
2
  Postal Service retail employees are sales and services distribution associates who scan delivery confirmation items
when they arrive at the delivery unit and sales and services associates who scan for the final delivery when
customers pick up parcels at the delivery unit.
3
  We conducted fieldwork to determine if Postal Service employees scanned international parcels and obtained
signatures from customers at final delivery.
Delivery Confirmation for Inbound International Mail                                        DR-MA-07-002



                                   Operating Procedure (SOP)4 on scanning international
                                   parcels barcodes and securing signatures at all points of
                                   delivery. Therefore, we are not making any
                                   recommendations on this issue. Postal Service employees
                                   do not scan individual international parcels during mail
                                   processing at the J.T. Weeker International Service Center
                                   (ISC). Furthermore, ISC officials do not maintain records of
                                   international parcels seized 5 by U.S. Customs, except
                                   Express Mail® and Registered Mail™. The Postal Service
                                   does not have a policy for U.S. Customs to provide
                                   notification of all seized parcels.

                                   As of January 2006, per the Universal Postal Union (UPU)
                                   agreement, the Postal Service is liable for the loss, damage,
                                   or rifling of all parcel items sent to the U.S. from a foreign
                                   destination. Consequently, the Postal Service is exposed to
                                   potential losses when shippers file claims for parcels that
                                   may not have entered the mailstream.

                                   We recommended the Senior Vice President and Managing
                                   Director, Global Business, explore developing a process to
                                   scan individual international parcels upon receipt at the
                                   ISCs and establish a procedure with U.S. Customs to notify
                                   the Postal Service of all confiscated inbound international
                                   mail.

                                   Management agreed with our recommendations to explore
                                   developing a process to scan individual international parcels
                                   upon receipt at the ISCs and establish a procedure with
                                   U.S. Customs to notify the Postal Service of all confiscated
                                   inbound international mail.

                                   Management raised questions about whether the report
                                   provided meaningful information for addressing delivery
                                   scanning. They also questioned whether observations
                                   made at six delivery units in the Chicago Area were
                                   adequate to draw conclusions regarding delivery scanning.
                                   Management’s comments, in their entirety, are included in
                                   Appendix C.

                                   Our draft report raised an issue regarding “Arrival at Unit”
                                   scans and provided a recommendation to scan inbound
                                   international mail parcels upon arrival at delivery units.
4
    Issued by the Deputy Postmaster General and Chief Operating Officer on June 14, 2006.
5
    Seized mail represents mail that is forbidden by U.S. law from entering the country.




                                                          2
Delivery Confirmation for Inbound International Mail                                                        DR-MA-07-002



                                    Management noted in their comments that this would be
                                    costly and would not qualify as “proof of delivery.” Based
                                    on their comments, we revised the report by removing
                                    both the finding and the recommendation (formerly
                                    recommendation 1). Therefore, this issue does not appear
                                    in the text of this final report.

                                    In regards to management’s concerns on information and
                                    conclusions related to delivery scans, this was a limited
                                    scope review based on a request from the former Acting
                                    Vice President of Delivery and Retail. Further, the former
                                    Acting Vice President concurred with our decision to
                                    perform the fieldwork in the Chicago Area at the three
                                    locations (Carol Stream, Chicago, and Palatine) with the
                                    highest volume of international mail based on weight. Our
                                    review was limited to this area, in part, because Postal
                                    Service Headquarters Marketing was executing a similar
                                    review in New York and Los Angeles. We based our
                                    conclusions on data analysis and interviews with multiple
                                    managers, supervisors, carriers, and sales and services
                                    associates. We believe this was adequate evidence to
                                    support conclusions regarding the two districts included in
                                    the review.

Background                          The Postal Service is a member of the UPU. The UPU is
                                    the specialized institution of the United Nations that
                                    regulates universal postal service facilities. It sets the rules
                                    for international mail exchanges and makes
                                    recommendations to stimulate growth in mail volumes and
                                    to improve the quality of service for customers.

                                    The UPU requires mandatory tracking of all international
                                    parcels at inbound arrival, unsuccessful delivery attempt,
                                    and final delivery. It also requires a signature from the
                                    recipient to confirm delivery. As of January 2006, the Postal
                                    Service is liable for the loss, damage, or rifling6 of all parcels
                                    sent to the U.S. from a foreign destination. Accurate
                                    scanning and delivery information is essential for the Postal
                                    Service to handle indemnity claims. According to the UPU
                                    decision, liability applies to all items defined as parcels,
                                    whether or not they include a special service.7

6
  Rifling is to ransack, especially with the intent to steal.
7
  Special service is a mail service for a fee in addition to required postage, that includes Registered Mail, Certified
Mail™, insured mail, collect on delivery, recorded delivery, special delivery, special handling, parcel airlift, business
reply mail, and return receipt for merchandise.




                                                             3
Delivery Confirmation for Inbound International Mail                                               DR-MA-07-002




                                 Contract air carriers deliver international mail with a bill of
                                 lading to the five ISCs located around the country.8 Foreign
                                 Postal Service administrators place country-of-origin
                                 barcodes on mail containers. At the J.T. Weeker ISC,
                                 employees scan the country-of-origin barcodes on the mail
                                 container into the Receipt Verification System.9 However,
                                 they do not scan the barcode on each individual parcel
                                 before sending it to U.S. Customs.

                                 ISC employees prepare the mail for U.S. Customs
                                 inspection. U.S. Customs officials determine what mail they
                                 need to inspect and either return inspected parcels to the
                                 Postal Service for processing or confiscate it. (See
                                 Appendix A.)

                                 If U.S. Customs officials return the mail, ISC employees sort
                                 it and send parcels to the Chicago Metro Surface Transfer
                                 Center for further distribution. The parcels are then sent to
                                 the processing and distribution centers (P&DCs) for transfer
                                 to the delivery units. (See Appendix B.) Mail arrives at the
                                 delivery units from the P&DCs each morning. The Great
                                 Lakes Area sales and services distribution associates scan
                                 the barcodes on the items and the corresponding delivery
                                 route barcodes to perform the "Arrival at Unit" scan for mail
                                 items requiring delivery confirmation. The distribution
                                 associates provide the mail to the carriers who prepare it for
                                 delivery.

                                 Carriers attempt to deliver mail items for delivery
                                 confirmation. If they are successful in delivering the item,
                                 they will secure a signature from the recipient; if they are
                                 unsuccessful, they leave a Postal Service (PS) Form 3849,
                                 Delivery Notice/Reminder/Receipt, at the recipient's
                                 address. If the carrier cannot deliver the item after several
                                 attempts, they bring it back to the post office for customer
                                 pick up. When the recipient picks up the item, a sales and
                                 services associate secures a signature to confirm delivery.

                                 On June 14, 2006, the Deputy Postmaster General and
                                 Chief Operating Officer issued a memorandum and SOP for
                                 delivery and scanning of all international mail parcels. The

8
 Currently, there are five ISCs: New York, Miami, Chicago (J.T. Weeker), Los Angeles, and San Francisco.
9
 This automated system speeds up the processing time for foreign mail so it enters the domestic mailstream more
quickly.




                                                        4
Delivery Confirmation for Inbound International Mail                                                DR-MA-07-002



                                 memorandum instructs all Postal Service Area Vice
                                 Presidents and the Manager of Capital Metro Operations to
                                 distribute the SOP to all district Delivery Confirmation
                                 coordinators. The SOP requires delivery and retail
                                 employees to scan parcels’ barcodes and secure signatures
                                 at the point of delivery.

Objective, Scope, and            Our objective was to determine whether delivery and retail
Methodology                      employees are scanning inbound international mail parcels
                                 to confirm delivery. The scope of this review was limited to
                                 parcels, which are the subject of the UPU delivery and
                                 scanning requirements.

                                 We limited the scope of our review to the processing of
                                 inbound international parcels at the J.T. Weeker ISC,
                                 Chicago Metro Surface Transfer Center, and the Palatine,
                                 Chicago, and Carol Stream P&DCs. We also examined
                                 scanning and delivery of inbound international parcels at
                                 six delivery units in the Great Lakes Area. The P&DCs
                                 referred to above are among the 31 Postal Service
                                 destinations with the highest volume of international mail.
                                 We did not determine the liability that the Postal Service
                                 would incur if delivery and retail employees did not properly
                                 scan and deliver inbound international mail.

                                 To obtain an understanding of how international parcels are
                                 processed before arrival at the delivery units, we
                                 interviewed Postal Service personnel at the J.T. Weeker
                                 ISC and the Chicago Metro Surface Transfer Center and
                                 U.S. Customs personnel located at the J.T. Weeker ISC.

                                 For each of the three P&DCs mentioned above, we
                                 judgmentally selected two delivery units that performed
                                 a high volume of delivery confirmation scans on inbound
                                 international parcels.10 To obtain an understanding of
                                 the distribution and delivery processes for inbound
                                 international parcels at the delivery and retail units, we
                                 interviewed Chicago and Northern Illinois District personnel
                                 and management at the delivery units. In addition, we
                                 interviewed city letter carriers, sales and services
                                 distribution associates, and sales and services associates
                                 at each unit.
10
  This information is based on the recorded delivery scans in the Product Tracking System. The Product Tracking
System provides a nationwide infrastructure for collecting and reporting data on the location delivery status of
Express Mail, and delivery confirmation for Priority Mail® and accountable mail.




                                                        5
Delivery Confirmation for Inbound International Mail                                         DR-MA-07-002




                                   We conducted this review from May through November
                                   2006 in accordance with the President’s Council on Integrity
                                   and Efficiency, Quality Standards for Inspections. We
                                   discussed our observations and conclusions with
                                   management officials and included their comments where
                                   appropriate. We did not rely on computer-generated data to
                                   develop our findings. Therefore, we did not conduct any
                                   testing of the validity of computer systems.

Prior Audit Coverage               We did not identify any prior audits or reviews related to the
                                   objective of this review.

Delivery Confirmation              Postal Service retail employees at the Chicago and
of International                   Northern Illinois Districts were not consistently scanning
Parcels at Delivery                inbound international parcels to confirm delivery because
and Retail Units                   they were not aware of the requirement to do so. However,
                                   Postal Service delivery employees at both districts were
                                   scanning inbound international parcels to confirm delivery.

                                   Carriers in both districts scanned barcodes on international
                                   parcels for delivery because as normal practice, they scan
                                   all barcodes on parcels for delivery confirmation. However,
                                   the sales and services associates were not aware of the
                                   requirement to scan all international parcels for delivery
                                   confirmation. The UPU requires tracking all inbound
                                   international parcels at the inbound arrival, unsuccessful
                                   delivery, and final delivery points. During our fieldwork, the
                                   Postal Service issued an SOP11 on scanning international
                                   parcels barcodes and securing signatures at all points of
                                   delivery. Also during our fieldwork, the Northern Illinois
                                   District Manager instructed unit management to reiterate to
                                   personnel the importance of scanning all international
                                   parcels. Chicago District management also stated they
                                   would train unit management and personnel to scan all
                                   international parcels. Since management took action during
                                   our audit to address delivery confirmation scanning, we are
                                   not making any recommendations on this issue.




11
     Issued by the Deputy Postmaster General and Chief Operating Officer on June 14, 2006.




                                                          6
Delivery Confirmation for Inbound International Mail                                 DR-MA-07-002




Inbound Arrival of             Postal Service employees do not scan individual
International Parcels          international parcels during mail processing at the J.T.
at ISC                         Weeker ISC. The ISC Manager informed the U.S. Postal
                               Service Office of Inspector General (OIG) that there are no
                               procedures to scan individual parcels at the ISC. These
                               parcels go through several processes at the J.T. Weeker
                               ISC, the Chicago Metro Surface Transfer Center, and the
                               P&DCs prior to arriving at the delivery units.

                               Inbound international mail arrives at the ISC for U.S.
                               Customs inspection, sorting, and transferring to P&DCs for
                               further mail distribution. According to UPU regulations,
                               international parcels require tracking at both arrival and final
                               delivery. However, ISCs are the first arrival point for these
                               parcels in the U.S. and they are not scanned until the carrier
                               attempts to deliver them.

                               UPU Electronic Exchange Standards provide information
                               describing the type of mail the originating country can
                               transmit to the destination country. According to Postal
                               Service Headquarters, International Network Operations,
                               they are working with foreign countries to increase the
                               amount of electronically transmitted data so the Postal
                               Service can retrieve information on individual international
                               parcels. This information could include electronic data
                               describing both the containers and individual parcels within
                               the containers. However, not all countries are fully
                               complying with the UPU electronic transmittal information,
                               due to cost constraints and technology resources.

                               Since the Postal Service does not scan each parcel when it
                               enters the mailstream at the ISC, it is impossible to
                               determine precisely how many international parcels they are
                               liable for under the UPU agreement. Therefore, the Postal
                               Service could be liable when customers file claims for
                               parcels that never entered the mailstream. Proper tracking
                               helps ensure that the Postal Service pays only legitimate
                               claims for loss, damage, or rifling of parcels sent to the U.S.
                               from a foreign destination.




                                                       7
Delivery Confirmation for Inbound International Mail                                 DR-MA-07-002




Recommendation                 We recommend the Senior Vice President and Managing
                               Director, Global Business:

                                    1. Explore developing a process to scan individual
                                       international parcels upon receipt at the international
                                       service centers.

Management’s                   Management agreed with the recommendation and stated
Comments                       they are exploring two options that could be solutions to this
                               issue. The first option is for U.S. Postal Service’s trading
                               partners to use the Presdes 2 EDI information, which will
                               allow the Postal Service to associate item numbers with
                               each incoming receptacle. The second option is to have the
                               Engineering department develop a passive scanning
                               solution that will capture the scan events without resorting to
                               a manual scanning process. The Postal Service believes it
                               can resolve this issue by using one of these options or a
                               combination of both.

Evaluation of                  Management’s comments are responsive to our finding and
Management’s                   recommendation and their planned actions should correct
Comments                       the issues identified in the finding.

Confiscated Inbound            J.T. Weeker ISC officials maintain records of international
International Parcels          Express Mail and Registered Mail seized by U.S. Customs;
                               however, they do not maintain records for other international
                               parcels seized by U.S. Customs. The Postal Service does
                               not have policies or procedures to obtain information
                               regarding all seized international parcels information from
                               U.S. Customs.

                               International parcels arrive at the J.T. Weeker ISC and ISC
                               employees then prepare them for U.S. Customs inspection.
                               U.S. Customs inspects the parcels and either returns them
                               to the Postal Service for processing or detains them for
                               further examination or seizure. (See Appendix A.) U.S.
                               Customs officials maintain a manual log to track seized
                               parcels. In addition, U.S. Customs officials enter
                               information regarding seized parcels into their internal
                               electronic tracking system.




                                                       8
Delivery Confirmation for Inbound International Mail                                DR-MA-07-002




                               U.S. Customs officials notify the Postal Service when they
                               seize Express Mail and Registered Mail and scan seized
                               Express Mail barcodes into the Postal Service’s Product
                               Tracking System. They verbally notify ISC officials of
                               seized registered parcels. ISC officials record this data in
                               the Postal Service’s Registered Mail database. However,
                               U.S. Customs does not inform ISC officials of other seized
                               international parcels.

                               The ISC plant manager contacted Postal Service
                               Headquarters International Network Operations during our
                               review to obtain guidance to implement a process for
                               receiving notification from U.S. Customs on all seized
                               inbound parcels. The manager indicated that it would
                               benefit the ISC to receive notification from U.S. Customs for
                               all seized parcels, not only those with special services.

                               According to the UPU agreement, the U.S. Postal Service is
                               not liable for the loss of an inbound international parcel
                               when it is confiscated because its contents are prohibited
                               from mailing. However, when U.S. Customs seizes parcels,
                               senders or intended recipients may still claim the Postal
                               Service did not deliver their parcels. If the Postal Service
                               has no record of seized parcels, it might inappropriately pay
                               those claims. Proper tracking helps ensure the Postal
                               Service pays only legitimate claims for loss, damage, or
                               rifling of parcels sent to the U.S. from a foreign destination.

Recommendation                 We recommend the Senior Vice President and Managing
                               Director, Global Business:

                                    2. Establish a procedure with U.S. Customs to notify the
                                       Postal Service of all seized inbound international
                                       parcels.

Management’s                   Management agreed with the recommendation.
Comments                       Management addressed this issue by inserting language
                               into Handbook T-5, International Mail Operations, which
                               states that the Postal Service is to receive a “Custody
                               Receipt for Seized Property and Evidence," U. S. Customs
                               Form CPB 6051, document for all seized items. In addition,
                               management instructed the ISC to keep this information on
                               file in the Records Unit for retrieval and use when
                               investigating claims or inquiries.



                                                       9
Delivery Confirmation for Inbound International Mail                             DR-MA-07-002




Evaluation of                  Management’s comments are responsive to our finding and
Management’s                   recommendation and the actions taken or planned should
Comments                       correct the issues identified in the finding.

                               The OIG has reviewed management’s responses to these
                               recommendations and agrees that both significant
                               recommendations should be closed in the follow-up tracking
                               system with the issuance of this report.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions or
                               need additional information, please contact Rita Oliver,
                               Director, Delivery and Retail, or me at (703) 248-2100.
                                 E-Signed by Colleen McAntee
                                ERIFY authenticity with ApproveI



                               Colleen A. McAntee
                               Deputy Assistant Inspector General
                                for Core Operations

                               Attachments

                               cc: William P. Galligan
                                   Jo Ann Feindt
                                   Jane Dyer
                                   Philip F. Knoll, Jr.
                                   Michael J. Nappi, Jr.
                                   Kelvin Mack
                                   E. Lynn Smith
                                   Steven R. Phelps




                                                       10
Delivery Confirmation for Inbound International Mail        DR-MA-07-002



                                            APPENDIX A




                                          Redacted




                                                       11
Delivery Confirmation for Inbound International Mail                                                  DR-MA-07-002




                                                 APPENDIX B

           INBOUND INTERNATIONAL PARCELS PROCESS AT THE
              CHICAGO METRO SURFACE TRANSFER CENTER
                                                      Mail arrives from
                                1                     the Chicago ISC
                                                       wtihout a bill of
                                                           lading




                                                  International parcels are
                                                                                             Containers with multiple
  Rejected mail for ZIP codes                   processed on the Automated
                                                                                            locations are rejected and
   600-605 delivery units are       Rejects      Package Process System           Rejects
                                                                                              processed on the Small
       sorted manually                        machine with originating domestic
                                                                                             Parcel and Bundle Sorter
                                                     Priority Mail stream




                                                  Mail is sorted to delivery
                                                  units for ZIP codes 600-
                                                           605 and
                                                  Containers with other ZIP
                                                            codes



                                                Sorted mail is dispatched to
                                                 the Plant and Distribution
                                                Centers (P&DC) and Air Mail
                                                 Facility for dock transfers.




                                                      Dock transferred
                                                       to the P&DC




                                                      Dock transferred
                                                      to Delivery Units




                                                            12
Delivery Confirmation for Inbound International Mail        DR-MA-07-002



                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                       13
Delivery Confirmation for Inbound International Mail        DR-MA-07-002




                                                       14
Delivery Confirmation for Inbound International Mail        DR-MA-07-002




                                                       15
Delivery Confirmation for Inbound International Mail        DR-MA-07-002




                                                       16
